<html>
<title> - CONTRIBUTIONS OF CENTRAL ASIAN NATIONS TO THE CAMPAIGN AGAINST TERRORISM</title>
<body><pre>[Senate Hearing 107-397]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-397

    CONTRIBUTIONS OF CENTRAL ASIAN NATIONS TO THE CAMPAIGN AGAINST 
                               TERRORISM

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON CENTRAL ASIA
                           AND SOUTH CAUCASUS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


77-602              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                 ------                                

                      SUBCOMMITTEE ON CENTRAL ASIA
                           AND SOUTH CAUCASUS

               ROBERT G. TORRICELLI, New Jersey, Chairman
JOSEPH R. BIDEN, Jr., Delaware       RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
PAUL D. WELLSTONE, Minnesota         GORDON H. SMITH, Oregon
BARBARA BOXER, California            SAM BROWNBACK, Kansas

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hill, Dr. Fiona, fellow, Foreign Policy Studies Program, The 
  Brookings Institution, Washington, DC..........................    21
    Prepared statement...........................................    24
Jones, Hon. A. Elizabeth, Assistant Secretary for European and 
  Eurasian Affairs, Department of State, Washington, DC..........     2
    Prepared statement...........................................     4
Starr, S. Frederick, chairman, Central Asia-Caucasus Institute, 
  Nitze School of Advanced International Studies, Johns Hopkins 
  University, Washington, DC.....................................    16
    Prepared statement...........................................    17

                                 (iii)

  

 
                     CONTRIBUTIONS OF CENTRAL ASIAN
                        NATIONS TO THE CAMPAIGN
                           AGAINST TERRORISM

                              ----------                              


                      THURSDAY, DECEMBER 13, 2001

                           U.S. Senate,    
               Subcommittee on Central Asia
                                and South Caucasus,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 3:22 p.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Chuck Hagel, presiding.
    Present: Senators Hagel and Brownback.
    Senator Hagel. Good afternoon. I am not Senator Torricelli.
    We are back in control. There has been a revolution.
    No. Senator Torricelli is on the floor of the Senate 
engaged in a debate over an important amendment that he is the 
author of and has asked us to proceed under the clear 
understanding that we shall not order any nominees to be 
brought forward or do any committee business. And I have given 
my word. I, of course, cannot speak for Senator Brownback.
    Senator Brownback. I have not given mine.
    Senator Hagel. I put up with that all the time. He is from 
Kansas, you know.
    So, we are going to proceed, and Chairman Torricelli will 
be with us, I am sure, as soon as he is able to extricate 
himself from his current debate on the floor of the Senate.
    Our first witness this afternoon is Assistant Secretary of 
State, Elizabeth Jones. Secretary Jones is the Assistant 
Secretary for European and Eurasian Affairs with a long, 
distinguished career of service to this country, and she knows 
a bit about Afghanistan since she served, I believe, as 
Ambassador. Is that correct?
    Ambassador Jones. Served as Ambassador to Kazakhstan, but 
my first post was Afghanistan.
    Senator Hagel. First post was Afghanistan.
    Ambassador Jones. Right.
    Senator Hagel. We are well aware of your credentials and we 
are grateful that you are here. So, we would like you to 
proceed. We have another panel coming in behind you, but since 
there are just two of us here now, I would ask Senator 
Brownback if he has any opening comments.
    Senator Brownback. Just briefly, if I could, Senator Hagel.
    Thank you, Ambassador Jones, for being here. I have got an 
amendment that I am going to have up on the floor, so I am 
going to leave right after this. I regret doing that because I 
am delighted to see this subcommittee formed. I think it is an 
important one. I am delighted to see this hearing occurring. 
Congressman Joe Pitts and I have formed a caucus on Central 
Asia, a bipartisan, bicameral caucus, and I think the whole 
region has come unto its own as far as our focus.
    I applaud the efforts of the administration to do that, I 
continue to encourage the administration, as we just spoke 
privately, about doing things that we can to persuade that 
region to work collectively together. Ambassador Jones is 
uniquely qualified with her knowledge of Kazakhstan and having 
been the Ambassador there for a period of time. That is a key 
country in that region.
    I stand ready and willing to work in any way that I can. We 
will continue to look at legislative issues like the lifting of 
sanctions on Azerbaijan that occurred earlier this year. We 
were recently able to provide the administration with waiver 
authority to do that. I think lifting things like Jackson-Vanik 
on the Kazakhs would be another issue that we should look at 
and keep trying to get bit by bit the items from the dam pulled 
out so that we can have a full flowing relationship back and 
forth. I do not know if Senator Hagel would join me in that, 
that we want to do whatever we can to help build this 
relationship between the United States and Central Asia 
overall.
    Mr. Chairman, thank you very much.
    Senator Hagel. Senator Brownback, thank you and thank you 
for your leadership on these issues over the years.
    Secretary Jones.

 STATEMENT OF HON. A. ELIZABETH JONES, ASSISTANT SECRETARY FOR 
EUROPEAN AND EURASIAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Ambassador Jones. Thank you very much, Senator Hagel, 
Senator Brownback. I am extremely happy to be here. 
Congratulations for forming the subcommittee. All of us are 
very, very pleased that you have done so because it underscores 
the importance of this region, an importance that the 
administration appreciates as well.
    I would like to, if you will, offer my testimony for the 
record. I have lengthy written testimony to outline the 
fullness of the policy that we are pursuing in Central Asia. I 
would like to summarize it very briefly orally, if I could, 
Senator Hagel.
    Senator Hagel. Please. And your full statement will be 
included in the record.
    Ambassador Jones. Thank you.
    I would like to underscore the importance of Central Asia 
to the United States. We have been working with the Central 
Asians for 10 years now, ever since their independence. They 
are all celebrating their 10th anniversary really right now.
    At the moment, we are developing a much more intensive 
relationship with each of the countries of Central Asia, each 
of the countries of this part of the world, in recognition of 
their geostrategic importance to us, but also in recognition of 
the work that we can do together to improve the situation of 
each of the countries, to improve the economic prosperity, the 
democratic principles that these countries adhere to, and to 
improve their ability to counter the transnational threats, the 
international threats that all of us are very much more aware 
of since September 11.
    In the course of the work that we do with each of these 
countries, we have, of course, focused for the moment on some 
of the military cooperation that we are able to accomplish with 
particularly countries that I call the front line states, 
Uzbekistan and Tajikistan, because of their border with 
Afghanistan. But that is simply an indication of the extent of 
the relationship that we hope to develop with each of these 
countries in all of the sectors that are of importance to them 
and to us, in particular beyond the military, the economic 
reform, democratic reform, social issues, and adherence to a 
variety of international organizations and treaties that we 
think increases their ability to work in the international 
community and to take their rightful place in the international 
community ever since their independence.
    In particular, I would like to note that Secretary of State 
Powell was just traveling in the region. He was in Uzbekistan 
on Saturday, in Kazakhstan on Sunday. He had hoped very much to 
stop in Kyrgystan as well, but because of a very heavy snow 
storm was unable to do so, but did take the opportunity to 
telephone President Akayev from the airplane to express his 
regrets and to talk about a couple of the issues that would 
have come up in their conversation.
    In his conversations with each of the three leaders, he 
especially thanked them for their support for the international 
coalition against terrorism, for their specific support in the 
military campaign in Afghanistan against Osama bin Laden [OBL], 
against al-Qaeda and against the Taliban, but also to take the 
opportunity to talk in much greater detail about the importance 
of the full range of the relationship, about the long-term 
relationship we expect to have with each of these countries and 
the work that we expect to do together to promote each of the 
areas that I mentioned earlier, economic reform, political 
reform, democracy, human rights, religious freedom, and social 
issues.
    One of the areas that is particularly interesting to all of 
us, of course, are the natural resources in that region. That 
was one of the reasons that this area has been interesting for 
the international community right from the beginning after 
independence. And Secretary of State Powell was able to use his 
visit to talk with the leaders, particularly with President 
Nazarbayev, about the importance of creating a good investment 
climate for American business, for international business in 
Kazakhstan, not just in the oil sector but in each of the 
sectors in which American companies are working.
    Of course, behind all of this, one of the issues that is of 
interest and importance is, so what does Russia think about all 
of this? Where does Russia fit into the new American 
relationship with each of these countries in Central Asia? This 
is an issue that has been discussed many times with the Russian 
leadership and the American administration. It is an area in 
which we want to achieve full transparency with the Russians. 
We explained that we are very much interested in a long-term 
relationship with these countries, but we do not see this in 
any way as a zero sum game. This is not an effort by the United 
States to replace other regional nations or other regional 
powers. It is merely an effort to include the United States in 
the region in the common effort that we all now have undertaken 
to counter transnational threats and to improve our ability to 
ensure regional cooperation and to increase the fabric of our 
relationship with each of these countries.
    With that, Senator Hagel, I would like to close my oral 
remarks and see what questions you may have.
    [The prepared statement of Ambassador Jones follows:]

 Prepared Statement of Hon. A. Elizabeth Jones, Assistant Secretary of 
                State for European and Eurasian Affairs

                     U.S.-CENTRAL ASIAN COOPERATION

    Mr. Chairman, distinguished members of the Subcommittee, it is a 
distinct honor and privilege to be the first Administration official to 
testify before this new Subcommittee of the Senate Foreign Relations 
Committee. The very fact that it was created testifies to the 
importance that the United States now accords to this part of the 
world. I want to report to you about Secretary Powell's visit to 
Central Asia over this past weekend, and discuss with you the general 
issues of our rapidly evolving cooperation with the five frontline 
states. But first, I would like to give you a bit of context for what 
makes this important part of the world unique.
Background
    The five countries of Central Asia emerged only a decade ago from 
the debris of the Soviet Union. While their ambitions are Western they 
have far more in common with their Asian neighbors than with 
traditional Europe.
    To the West, Central Asia for centuries has been one of the most 
inaccessible and least understood parts of the world. In the Middle 
Ages, great Islamic theologians, philosophers, scientists, and artists 
were born, flourished, and were buried in Central Asia, mostly in 
modern-day Uzbekistan. Their scholarship deeply influenced the 
Renaissance in Europe.
    By the late 19th century, however, these squabbling and despotic 
warlords became vulnerable to colonization by the Russian Empire. At 
the turn of the 20th century, the Soviet Empire clamped this region in 
the vise of Stalinism. I do not excuse the current problems and 
irritants in Central Asia. But when we become impatient, we need to 
remember the Region's 20th-century history. Major transitions in the 
basic nature of these regimes may require generational change. We need 
to be patient and continue to push for reform where it is possible.
    We have a vision for this region--that it become stable, peaceful, 
and prosperous. We have a vision that the individual countries will 
markedly accelerate their economic reforms and democratic credentials, 
respect human rights, and develop vibrant civil societies. We have a 
vision that the countries of this region are increasingly integrated 
into the global economy via an east-west corridor of cooperation 
stretching from China and Afghanistan across the Caucasus to the 
Mediterranean. We share this vision with the well-educated, ambitious, 
hardworking people of these new countries. We are engaging--seriously 
and for the long term--with Central Asia.
The Secretary's Visit
    Our readiness to engage more intensively was the message that 
Secretary Powell carried to the region last weekend. Of course, a 
primary purpose of his visit was to express American appreciation for 
the Central Asian countries' ongoing critical support for Operation 
Enduring Freedom. While concentrating on the war effort, however, he 
explored the full range of cooperation, including the development of 
genuine pluralism and democracy, rule of law, humanitarian relief, 
Caspian energy, human rights and economic reform.
    The Secretary began in Uzbekistan, the most populous Central Asian 
state. In his meetings with President Karimov, Foreign Minister Kamilov 
and Defense Minister Gulamov, the Secretary discussed Uzbekistan's role 
in the war on terrorism, the political future of Afghanistan, and the 
continued importance of human rights and economic reform. During the 
Secretary's visit, President Karimov took the important step of 
announcing the opening of the Friendship Bridge between Uzbekistan and 
Afghanistan that we expect will soon serve as a critical corridor for 
humanitarian relief supplies. The Secretary also took the time to meet 
with an Uzbek NGO emphasizing the importance he places on the 
development of civil society. I will follow up on the Secretary's visit 
with a trip to Tashkent early next year to co-chair the U.S.-Uzbekistan 
Joint Security Cooperation Consultations. These discussions are 
intended to define in greater detail the contours of our new and 
intensified relationship.
    The Secretary's second stop was to be the Kyrgyz Republic, but 
nature intervened. Heavy snowfall in Bishkek prevented the Secretary's 
plane from landing. He did have a long telephone call with President 
Akayev in which they discussed further counterterrorism cooperation and 
progress on Kyrgyz efforts to promote further democratic reform. Facing 
daunting obstacles, the Kyrgyz leadership early on embraced democratic 
and economic reforms. After backsliding, the country is returning to 
the road to reform.
    The Secretary's final stop in Central Asia was Kazakhstan, the 
state with the largest territory and the most economic potential in the 
region. Stable, multi-ethnic, and nuclear-free, Kazakhstan is likely to 
become one of the top five oil producers in the world by 2010. The 
European Bank for Reconstruction and Development judged it the leading 
economic reformer of the former Soviet Union. U.S. investment exceeds 
$5 billion, and is growing.
    The Secretary's talks with President Nazarbayev and Foreign 
Minister Idrisov focused on the need for further competition and 
transparency in energy development, deeper development of democracy and 
respect for human rights, and Kazakhstan's potential role in Afghan 
reconstruction. The Secretary also discussed with President Nazarbayev 
his visit to Washington later this month.
    While in Astana, he met with members of the American Chamber of 
Commerce to reinforce the message that we are working with Central 
Asian governments to make sure that the region is a profitable place 
for U.S. business and investment.
Our New Vision for Central Asia
    Secretary Powell's visit to the region was a rousing success. He 
received a gratifying level of support and cooperation from our Central 
Asian partners. This is yet another sign of how the world has changed 
after September 11. And it underlines that our foreign policy must 
evolve to keep pace with this change.
    The stakes are undeniably high in Central Asia. In what only a 
decade ago was the Soviet Union, the United States now has thousands of 
U.S. military personnel working alongside their Central Asian 
counterparts. We rely on these governments for the security and well-
being of our troops, and for vital intelligence that has helped us to 
conduct such an effective military campaign in Afghanistan.
    The frontline states of the region provide a critical humanitarian 
corridor for food and emergency supplies that may save the lives of 
millions of people living in northern Afghanistan this winter. We will 
want the rising tide of reconstruction in Afghanistan to lift the 
Central Asian boats, too. We would like to see post-war reconstruction 
supplies and materials purchased, to the extent possible, in 
neighboring countries to buoy their economies.
    Our country is now linked with this region in ways we could never 
have imagined before September 11. Our policy in Central Asia must 
include a commitment to deeper, more sustained, and better-coordinated 
engagement on the full range of issues upon which we agree and 
disagree. These include security cooperation, energy, and internal 
strengthening of these countries through political and economic reform. 
President Bush has invited both the presidents of Kazakhstan and 
Uzbekistan to Washington in the coming months as the centerpiece of 
this intensified engagement.
    We have told the leaders of these countries that America will not 
forget in the future those who stand by us now. After this conflict is 
over, we will not abandon Central Asia. We are committed to providing 
the resources, the high-level attention, and the multinational 
coordination to support reform opportunities. We want to stand by the 
Central Asian countries in their struggle to reform their societies in 
the same way they have stood by us in the war on terrorism. This is not 
only a new relationship, but a long-term relationship.
    This will require resources that must be tailored to each country. 
Uzbekistan has asked for guidance and support in its dealings with the 
International Monetary Fund and other international financial 
organizations. Kazakhstan needs more foreign investment and support for 
local private-sector development. Turkmenistan may need support for the 
development of grass roots organizations. Kyrgyzstan needs help with 
its debt burden. Tajikistan, the poorest state in the region and still 
recovering from civil war and drought, will need a broad range of 
humanitarian, economic, and political assistance. In all five 
countries, we need to expand our ongoing support for democratic 
political institutions, local non-governmental organizations, and 
independent media. We are ready to explore new areas of assistance for 
all five states, but only in exchange for demonstrated, concrete steps 
toward reform.
    Promoting reform in Central Asia has not been easy. Today we are 
concentrating much of our assistance on programs that seek to educate 
and inspire the next generation of leaders in the region. You know 
these initiatives well. They include the high school-level FLEX 
program, Freedom Support Act program at the university level, and the 
graduate-level Muskie program. Further, the IREX exchange program 
targets young professionals, and the Peace Corps has a broad range of 
programs for the next generation. These programs look to the future by 
concentrating on the successor generations, and they are an integral 
part of our long-term commitment to Central Asia.
Promoting Longer-Term U.S. Interests
    In addition to wanting these countries to become stable and 
prosperous, we have three significant U.S. national interests in the 
region: preventing the spread of terrorism, providing tools for 
political and economic reform and institution of the rule of law, and 
ensuring the security and transparent development of Caspian energy 
reserves.
    The terrorist threat emanating from Afghanistan reinforces our view 
that underdevelopment and repressive, anti-democratic regimes provide 
conditions that terrorists and other extremists exploit. We have been 
working on counterterrorism with states in the region, but we must do 
more in parallel with our emphasis on respect for human rights. Since 
the announcement of the Central Asian Border Security Initiative in 
April 2000, the USG has committed $70 million for customs and border-
guard training, anti-terrorism assistance, and communication, 
observation and detection equipment. These programs have been well-
received. They have developed the basis for cooperation upon which we 
have built our current joint efforts in Operation Enduring Freedom. But 
I want to emphasize that our many efforts at promoting human rights, 
democracy and economic development are every bit as important as our 
security assistance in dealing with the long-term root causes of 
terrorism.
    An inextricable component of a more secure and prosperous Central 
Asia is an investment and legal climate that will both fuel local 
economic development and protect the interests of U.S. traders and 
investors. Property rights, privatization, due process, rule of law, 
currency convertibility, bank and tax reform all contribute to the 
security of investments and individuals in Central Asia--the foundation 
of a stable economy and just society. We are investing heavily in 
efforts to promote this kind of reform throughout the region.
    Development of the vast Caspian energy reserves and their reliable 
export to global markets will in large part determine the ability of 
Central Asia to achieve economic independence and improve the standard 
of living of its citizens. Ensuring this autonomy for the Caspian 
states, as well as diversifying global energy supplies and creating 
opportunities for U.S. expertise and investment, make the development 
of Caspian energy an important U.S. interest as well. Our policy in 
this area has focused on enabling these states to develop multiple and 
reliable transport corridors for delivery of these resources to global 
markets.
    Currently these hydrocarbon resources reach the West via pipelines 
that transit Russia. We seek to broaden export options for the 
countries of Central Asia and the companies operating there. Our 
objective is therefore anti-monopoly but not anti-Russian. We have 
supported and facilitated the efforts of Turkey, Azerbaijan and Georgia 
to reach agreement with private companies to build pipelines from the 
Caspian Sea across the Caucasus to Turkey. I am proud to say that 
construction of the landmark Baku-Tbilisi-Ceyhan (BTC) pipeline will 
begin this summer and will bring oil to world markets in 2005. The Shah 
Deniz gas pipeline, paralleling BTC, is also on track. I am also 
pleased that the Caspian Pipeline Consortium or CPC Pipeline is also 
now officially operating. This pipeline, which links Kazakhstan to 
global markets via Russia, underscores the desire to work in 
partnership with the former Soviet nations, developing Caspian energy.
A New Partnership with Russia
    One of the most remarkable developments of the last three months 
has been our extraordinary cooperation with Russia in a region that was 
formerly part of the Soviet Union and that Russia naturally regards as 
its own backyard.
    On October 19, we conducted our first-ever United States-Russia 
consultations on Central Asia. We were both pleasantly surprised and 
gratified by the convergence of interests in this region. We both 
desire long-term stability and prosperity in Central Asia, where we 
both have important interests. And we have pledged transparency and 
collaboration. Secretary Powell's conversations in Central Asia and 
Moscow over the past few days were part of this new effort, and 
demonstrate their need by no tension between our support for the 
sovereignty and independence of the Central Asian states and our desire 
for broader and deeper cooperation with Russia.
    Presidents Bush and Putin are leading our countries to a new level 
of cooperation in many spheres, including in Central Asia. President 
Putin has shown noteworthy leadership in the way he has actively 
coordinated with Central Asian leaders to encourage their cooperation 
with the United States in the battle against terrorism. This supports 
what we have long said: that Central Asia is not a zero-sum game. We 
have no desire to replay the nineteenth century ``Great Game'' in the 
twenty-first. We have offered support to efforts by Russia, Kazakhstan 
and Azerbaijan to foster a new Caspian Sea delimitation scheme, as long 
as these efforts do not hinder the future transport of energy 
resources. Our shared interests with Russia indeed, with the other 
regional powers of China, Turkey and even Iran--are greater than our 
areas of competition.
A Partnership with the Congress
    The role of the Congress, and in particular this Subcommittee of 
the Senate Foreign Relations Committee, will be vital as we invigorate 
our relations with Central Asia. As the former United States Ambassador 
to Kazakhstan, I have seen first-hand that the leaders in this region 
really do want an active dialogue with the United States and especially 
with members of Congress. I would certainly welcome more members of 
Congress visiting Central Asia, but particularly members of this 
Subcommittee. The Administration values your input and suggestions as 
we move forward with this region. It is for that reason that I am 
particularly grateful for your invitation to share perspectives today.

    Senator Hagel. Thank you very much.
    You alluded to this in your remarks, but would you define a 
little more fully what, in your opinion, are our longer-term 
objectives for Central Asia? You talked about some of the 
countries specifically, stability, some of the generally agreed 
upon principles, but defining that down deeper, how do we do 
that? Obviously we are dealing now and will continue to be 
confronted with economic reconstruction of the Central Asian 
nations. What role should they play? How can they play? Take 
that as far you would like.
    Ambassador Jones. Thank you. I would be glad to do that.
    The relationship that we have been working on with each of 
these countries for the past 10 years and which we would like 
now to reinvigorate is, as I mentioned, a very, very broad one. 
And the reason for that is that these are countries that have 
immense natural resources, but more importantly, they have 
immense personal resources. They have immense resources in 
terms of the people who live there and the contributions they 
can make to the international community. These are countries in 
which the education level is extremely high. That is one of the 
very positive legacies of the Soviet Union. It is an area in 
which people have great aspirations for determining their own 
destiny. They have not had a good understanding of what 
democracy means. They do not have a good understanding of what 
responsibility within a democratic state means and how one 
exercises that.
    So, the challenge that we have had over the past 10 years, 
which we are really working on to energize now, is to work with 
each of these countries to try to enhance their ability to work 
on the international stage in the economic sphere and the 
political sphere and the social sphere and the military sphere.
    We do that through, for instance, on the economic side 
working closely with finance experts on bank reform. How do you 
have a national banking system that fits into the international 
banking system? How do you have free flow of finances with 
accountability and with transparency? What kind of tax system 
would work with that kind of banking system? What kind of stock 
exchange does one have if one wants to have a transparent, free 
market economic system in the country?
    So, the kind of assistance that we provide and that we 
intend to continue to provide in specific areas is very 
targeted. It is very focused on technical assistance because, 
as I say, after all, we are dealing with highly educated, 
highly motivated people in each of these countries.
    One of the difficulties we face, though, is as we work with 
each of these countries to put in place the tax system that 
makes the most sense there or the privatization system that 
would work best to transform this heavily state-controlled 
economy into a market-based private economy is that there are 
still interests that make it more difficult to assure that full 
transparency can be accomplished and that full government 
control, shall we say, of the correct way to do things can be 
put into place. What I am trying to say is corruption is a big 
problem. And it is another area in which we try to work on in 
terms of legislative reform to develop the kinds of laws and 
regulations that close down the loopholes or close down the 
possibilities for corruption to be possible in each of these 
countries, as well as to work with international NGO's, like 
Transparency International, to develop internal systems that 
people in the region and the countries themselves would like to 
see instituted.
    On the social and educational side, we have found that the 
exchange programs that have been underway for some time are 
extremely successful. That is probably the single most 
successful program that we have in this part of the world, the 
FLEX students, the Fulbright students, Fulbright professors, 
the Bradley students. There are all kinds of exchanges at the 
high school level, the university level, and the post-graduate 
professional level that we find are the very, very best way to 
introduce the people of this region to the kinds of 
intellectual principles, the kinds of democratic principles, 
economic reform kinds of ideas that we think are very 
important, in other words, the values that we hold close.
    On the military side, the military cooperation that we have 
undertaken with these countries has been very much focused on 
developing these countries' ability to defend themselves, so we 
have done a lot of work on border controls, which gets to the 
heart of how to make sure that we have the right kind of 
counternarcotics programs in each of these countries, how to 
make sure that there are the right kind of immigration and 
border controls in these countries that allow them to prevent 
the influx of terrorists or people who are smuggling nuclear 
materials or weapons of mass destruction elements and that kind 
of thing. Our border control work has not been sufficient in 
our view, so we are building that up, particularly in 
Uzbekistan and Tajikistan, which have been the most porous 
borders in terms of threats coming out of Afghanistan.
    Also in the military-to-military work that we have done, we 
have done a lot of training on how to institute civilian 
control over the military, training programs that introduce to 
members of the parliament, how do you look at a military budget 
and work with senior officers in the military on how you 
develop a budget that can be and should be scrutinized by a 
parliament. What are your responsibilities to the people, to 
the parliament in terms of being transparent about what kind of 
military you have and what kind of budget you are putting 
forward. These are all new concepts, and it has been very 
interesting to work with each of these governments and their 
militaries and the parliament in how you start doing these 
kinds of things.
    On the social side, we have done a lot of work on 
privatizing medicine, on privatizing pharmacies, on specific 
work to go after preventive medicine rather than the old Soviet 
system which focused very much on curing diseases but almost no 
resources on preventing. So, there has been a lot of work done 
on what we call social marketing, how do you get out 
information to the public on how do you eat right to prevent 
heart disease, what does cause heart disease? What about 
tuberculosis? What is the problem? How do you know when people 
around you have tuberculosis? Information and training on the 
connection between tuberculosis and AIDS. USAID has had some 
very successful programs there. They have been pilot projects 
and many of them have been taken over by the World Health 
Organization because they have been considered to be so good 
and used in more parts of each of these countries.
    A fundamental effort that we have underway, though, that we 
really need to do more work on, as Senator Brownback mentioned, 
is we would like to work to promote greater regional 
cooperation among each of these countries. Each one of them has 
developed slightly differently from the other. Each one has 
differentiated themselves from the other. Even though they all 
started out pretty much the same 10 years ago, they have each 
developed their own personality, their own nationality, and 
that has not always been the best for regional cooperation. We 
would like to promote that. We would like to see if there are 
not ways that resources in one country can be leveraged for 
resources in another. For example, it seems to us that there is 
more than can be done when Kazakhstan has so much coal, 
Kyrgystan needs coal, Kyrgystan has water, Kazakhstan and 
Uzbekistan need water. There must be something more that can be 
done there to develop better cooperation in those kinds of 
resources.
    Senator Hagel. Thank you.
    How would you rate the Iranian contribution to our efforts 
in Afghanistan and generally over the last 3 months our 
efforts, our allies' efforts to develop some stability in 
Central Asia as we are conducting the military operation in 
Afghanistan?
    Ambassador Jones. I hope my colleague in the Middle East 
Bureau will not be concerned about my answer since it is not 
really my area.
    Senator Hagel. No, they will not be. It is all right.
    Ambassador Jones. The Iranian reaction I think we have 
found interesting. They seem to be as concerned about terrorism 
as the rest of the international community. They have done some 
very good work with refugees coming out of Afghanistan. That 
has been an area where there has been some international 
cooperation that we have participated in.
    On the political side, I hesitate to speak about it because 
I am not fully enough current with how that has been 
developing. So, I will ask my colleague, Ambassador Burns, to 
respond to you on that, if I may.
    Senator Hagel. If he ever comes home.
    Ambassador Jones. If he ever comes home.
    Senator Hagel. I know this is a bit out of the general 
geographical area that you are talking about today, but as you 
note in your comments and as you noted in your testimony, it 
all does connect. Russia. Short-term, long-term interests in 
this area. Obviously, they are developing a new center of 
gravity as a result of what they have been through the last 10 
years. I would be interested in your thoughts about their role, 
their involvement, their cooperation, their activities now in 
Central Asia.
    Ambassador Jones. Thank you. I would like to do that very 
much.
    Deputy Secretary Armitage led sort of an emergency session 
of the U.S.-Russia-Afghan working group right after September 
11. I think we were in Moscow the following week for an 
emergency session of this working group, specifically to talk 
about how we might concert to work together on the terrorism 
problem, particularly in Afghanistan. Of course, in the course 
of those discussions, we spent a lot of time talking about 
Central Asia and have continued that discussion at successive 
working group sessions. Of course, Secretary of State Powell 
has discussed that many, many times with Foreign Minister 
Ivanov.
    The fundamental point that we make to the Russians is, as I 
mentioned, that we do not see this as a zero sum game in the 
region. We very much welcome and appreciate the cooperation and 
joint sense of purpose that we have been able to develop with 
Russia about Afghanistan over the past 3 months since the 
terrible events on September 11. The Russians see Afghanistan 
as having been the source of threat to them from terrorism and 
from narcotics especially but also from other kinds of 
smuggling, particularly dangerous smuggling in weapons of mass 
destruction components. So, we have been able to have extremely 
productive, collegial discussions with the Russians constantly, 
especially since September 11, on how we might work together on 
counternarcotics issues, on terrorism issues in Afghanistan, 
but also as these threats might seep through Central Asia.
    So, we have undertaken to have a very transparent 
discussion with the Russians about the programs that we have 
underway in Central Asia with the Central Asians to get at 
exactly those threats. It is really an extremely productive, 
very collegial discussion, the tone of which is based on what 
more can we do together to make sure that these threats go away 
as much as we can make them go away.
    Senator Hagel. A country that you do know an awful lot 
about, Kazakhstan. What is your evaluation of their 
contributions to our efforts over the last 3 months in 
Afghanistan?
    Ambassador Jones. Kazakhstan made a very strong public 
statement, right from the beginning, of support for the United 
States and for the coalition against terrorism. They have 
offered military assistance, overflight, that kind thing. They 
have offered bases for our use. We have not taken them up on 
that offer. They have a lot of wheat for sale. They have a lot 
of wheat to contribute to the humanitarian operation in 
Afghanistan, and the World Food Program has taken them up on 
that. So, most of the wheat going into Uzbekistan now comes 
from Kazakhstan.
    In our discussions on Sunday with President Nazarbayev and 
his team, the level of support was again offered very 
enthusiastically, a very high level of support. It gives us a 
platform from which to enhance our ability to work with them 
and their ability to work with us on border control issues, on 
transparency issues. Secretary of State Powell was able to make 
the point that one of the benefits of the deepened and more 
integrated relationship we have with Kazakhstan, Uzbekistan, 
and Tajikistan and some of the others is that we are able to 
talk much more frankly and much more often about all of the 
issues that concern us and that are imperative for these 
countries to resolve and improve on in order to assure their 
own stability.
    He was able to make the case that without a fundamental 
ability of citizens to vote and the fundamental ability of 
citizens to choose their leaders and to determine their fate, 
without a fundamental ability of the people of these countries 
to have jobs, to work and to be prosperous and to choose their 
work, that stability will always be out of reach. He was able 
to make that point very clearly and very persuasively both in 
Kazakhstan and in Uzbekistan.
    Senator Hagel. You touched, I think a couple of times, on 
the issue of drugs and the challenge that presents to all these 
governments and these societies. Would you develop that a 
little more fully? Obviously, what we are doing in Afghanistan 
has had a very significant impact on the drug trade there. Are 
we pushing it out and across the borders into these other 
countries or what are the consequences of this issue?
    Ambassador Jones. Absolutely. We hope that the consequences 
will be extensive, that we, the international community, will 
be able to work with the Afghan authority, as it develops and 
as it is replaced through a vote, to end the poppy cultivation 
in Afghanistan. That, after all, has been a terrible thing for 
the countries of the region. It has been terrible for Pakistan, 
not to mention Afghanistan. The leaders in Central Asia worry 
about increased addiction among their population. They worry 
about the corruption on the borders that drug trafficking 
involves. They want very much to work with the U.N. and with 
other international organizations, as I say, to end poppy 
cultivation and to clamp down on their borders to be able to 
prevent trafficking.
    Senator Hagel. I understand that Dr. Hill who is going to 
testify in the second panel says in her testimony--and I 
quote--``Uzbekistan is a source of regional tension rather than 
stability.'' You do not agree with that, I assume. Or do you 
agree with that?
    Ambassador Jones. Uzbekistan is a source of regional 
tension?
    Senator Hagel. If I read this right. We will have Dr. Hill 
up here soon. I have not read her testimony, but our alert, 
brilliant staff have given me this, so it is their fault if 
they have misquoted her. If that quote is correct, would you 
respond to that? Do you believe Uzbekistan is a source of 
regional tension rather than stability?
    Ambassador Jones. I do not believe Uzbekistan is a source 
of regional tension. I believe that the international movement 
against Uzbekistan, the IMU, is a source of tension. That is a 
terrorist organization. It is an organization we label as a 
terrorist organization that works out of Afghanistan, whose 
primary goal is the overthrow of the Uzbek Government and the 
transformation of that government into an Islamic state. But I 
would not say that Uzbekistan itself is a source of regional 
tension, no.
    Senator Hagel. Well, when Dr. Hill gets up to talk, we can 
develop that a little more fully.
    Pakistan. What is your assessment of not only their 
contributions but of what is ahead for Pakistan diplomatically, 
militarily, economically? Obviously, the concerns that we have 
had and continue to play out with their differences with India 
are significant and probably are not going to go away anytime 
soon.
    Ambassador Jones. President Musharraf I know has been a 
staunch supporter of the coalition. We are extremely pleased 
with the cooperation that we have received from him which we 
believe, of course, he is doing in his own interest. But, 
again, if I get much further, I am going to get in trouble with 
another Assistant Secretary, Christina Rocca, since that is one 
of hers, not mine.
    Senator Hagel. She was up here, as you know, and she will 
not mind.
    But I think you cannot come up here and talk about Central 
Asia and just stop at the borders. I think you understand that 
and that is why you are getting the questions you are. It does 
not work that way and you know that. So, go ahead.
    Ambassador Jones. I was fortunate enough to be able to 
serve in Pakistan for 4 years, and developed a very clear 
appreciation for the difficulties that the Pakistani leadership 
sees for itself in the way the social issues in its country 
have developed. Certainly President Musharraf is doing his best 
to get at those social issues. When there is quiet in 
Afghanistan--and we certainly trust that there will be--and 
when there is a government in Afghanistan that adheres to the 
international values that the interim group has certainly 
subscribed to in the Bonn agreement, I am sure that President 
Musharraf will be much relieved and will be able to focus much 
more on development and improvement of the social conditions in 
his own country, particularly when he no longer has to expend 
so many national resources on the care of so many hundreds of 
thousands of Afghan refugees in his country. Many, many 
thousands are going back every day now, as they are going back 
from Iran.
    With your indulgence, I would like not to try to comment on 
the Pakistan-Indian relationship. I regret I have not kept up 
with it in the intimate detail that I know that Assistant 
Secretary Rocca has.
    Senator Hagel. Well, I will trade you then. We will talk 
about the ABM decision here in a minute.
    Ambassador Jones. All right.
    Senator Hagel. Turkmenistan. We have not given much focus 
to Turkmenistan here this afternoon. Are they not as involved, 
or what contributions would we say Turkmenistan has made?
    Ambassador Jones. Turkmenistan is not quite as involved. 
They certainly have been very involved in being a staging 
ground for humanitarian goods to go across into Afghanistan. 
They have provided the kind of overflight and the military 
assistance that we have needed from them in order to prosecute 
the war against al-Qaeda and OBL in Afghanistan. They have been 
very cooperative and helpful there without any question. They 
have a very long border with Afghanistan, so their willingness 
to open their borders early to humanitarian assistance going 
across was really very, very welcome by us and by the rest of 
the international community and NGO's working in that region.
    The leadership of Turkmenistan has a very particular way 
that they like to think of themselves and think of the rest of 
the world. So, our relationship is not as broad there as it 
could be. We would like very much to do more work with the 
Turkmen. We have tried in the past to work with them in terms 
of energy transportation across the Caspian, but they really do 
not want to pursue that in the way that we think is the most 
commercially viable. So, we have not been able to make as much 
advancement there as we would have liked to.
    Senator Hagel. I mentioned ABM and, of course, that has 
been much of the topic today. Realizing I know what you may 
well say, that is not in your portfolio, but you have lived in 
Central Asia, you have lived in a very dangerous part of the 
world that has splashed over into--when you started your 
career, it was the Soviet Union. I would be interested in your 
thoughts on the Russian response today to ABM, what effects it 
may or may not have on our relationship with Russia in our 
joint efforts working together in Central Asia.
    Ambassador Jones. Thank you. I actually very much welcome 
the opportunity to talk about the latest on the ABM Treaty.
    We were very pleased to see President Putin's response to 
President Bush's announcement this morning that we have given 
notification. He, of course, knew we had given notification. We 
gave it earlier today and have talked with him about it 
previously. As he said, he was not surprised by this, although 
he was disappointed.
    At the same time, he has focused on, as we have, the 
importance of reducing offensive nuclear weapons, and we were 
very pleased that he has also announced the range to which he 
would like to reduce his offensive nuclear weapons, 1,500 to 
2,200. He has also said that he would like to work with us--and 
we have said the same thing--to somehow codify the U.S. 
statement of the level to which the United States would like to 
reduce its offensive nuclear weapons and the level to which the 
Russians would in some kind of an agreement that might be 
signed when President Bush visits Russia toward the middle of 
next year.
    At the same time, I think the important thing is that the 
Russians, as President Putin said, do not see this as being a 
threat to their security. They have done their own evaluation 
and do not see this as threatening. They look forward to 
working with us on developing some kind of an agreement to 
codify the reduction in offensive weapons, and they do not see 
this as any way an instigation for an arms race. We have had 
really extremely productive, very detailed discussions with the 
Russians over the past couple of months since the President 
first met with President Putin in Nybdana through Genoa, 
through Shanghai and then in Washington and Crawford to discuss 
all aspects of the ABM Treaty of how we might handle the ABM 
Treaty together, recognizing that it is a relic of the cold 
war, recognizing that the purpose of the ABM Treaty was really 
to codify a dangerous relationship between Russia and the 
United States that absolutely no longer exists. We no longer 
see Russia as the enemy. We certainly do not see it as a 
threat, and we would like to find ways to move forward on 
international missile defense as well.
    President Putin was clear, though, that he would have 
preferred the United States not leave the treaty before there 
was something else in place. The testing program that President 
Bush has determined he would like to pursue does not permit 
that, and so he made the decision that it was time to give 
notice under article 15 that we would be leaving the treaty in 
6 months. That said, I know we will all be working very hard to 
try to work toward the codification of the fundamental 
decisions that have already been made on reducing offensive 
weapons by both sides.
    Senator Hagel. So, you would not see this as any inhibiting 
dynamic of the Russians and the Americans and others working 
together in trying to bring stability to Central Asia.
    Ambassador Jones. Absolutely not. One of the things that 
has developed in the relationship between President Putin and 
President Bush and that we have worked on more institutionally 
is the number of areas in which we have very broad agreement 
and the number of areas in which we wish to have greater 
cooperation. Of course, Central Asia was one of those topics. 
But beyond that, we have been doing a tremendous amount of work 
to support Russia's accession to the World Trade Organization. 
We have been doing a tremendous amount of work with the 
Russians to improve the investment climate there. We are 
working on educational exchanges. We are working on ways to 
enhance the ability of independent media to work productively 
and effectively in Russia, and of course, we only a week ago 
pledged to work with Russia on a NATO relationship that would 
permit us to discuss with Russia various issues of interest to 
the NATO alliance and to Russia.
    Senator Hagel. In the interest of time, I understand we may 
have a vote at 4 o'clock, and we have another panel. But I 
would, if I could, Secretary Jones, ask you one last question. 
This came up last week when your colleagues were up here.
    The temporary governing body of Afghanistan that was 
produced in Bonn a week ago, the 30-member temporary coalition 
government, what is your sense of that, not just the process 
but what they have done, the likelihood of further stabilizing 
Central Asia, anything that you would like to comment on.
    Ambassador Jones. Thank you. I think what these Afghan 
leaders did in Bonn is nothing short of phenomenal. They 
clearly have decided that they have had way too much of war. 
They clearly have decided that it is time for all the 
communities in Afghanistan to work together--they have been 
trying--and to bring peace to Afghanistan.
    Certainly the support of the international community is 
imperative to assure that reconstruction funding can be done in 
the way that it absolutely must be done in order to make it 
possible for Afghans who have been bearing arms for so many 
years to have jobs, to have gainful employment when they are no 
longer going to be paid for fighting.
    The reconstruction effort that we have underway in 
Afghanistan we hope will also, as we say, float the boats of 
the Central Asians. It cannot help but have a regional effect 
for Afghanistan to no longer be a pariah state, to be a state 
that generates terrorism, that generates narcotics, that 
generates destabilizing factors. It cannot help but make it 
much easier for each of these countries to find a way to work 
together regionally. It is something we want very much to 
promote, and it is something that each of the leaders in 
Central Asia mentioned to Secretary of State Powell on our 
recent trip, how much they want to participate in Afghan 
reconstruction and they see the benefit flowing from 
Afghanistan to their own countries.
    Senator Hagel. Madam Secretary, is there anything else you 
would like to add?
    Ambassador Jones. No, thank you, Senator. I wanted to say 
again how much I appreciate the formation of the subcommittee. 
I look forward to many more discussions like this. Thank you 
very much.
    Senator Hagel. Well, thank you. I too believe--I think we 
all do on this committee--that it was a very wise decision to 
put a particularly strong emphasis and focus on what is going 
on over there. It will give us certainly more depth here to be 
able to spend more time on the area of the world that you now 
have some responsibility for. Thank you very, very much.
    Ambassador Jones. Thank you. I look forward to hosting you 
in the region too. I know our embassies would like very much to 
see all of you join them out there.
    Senator Hagel. Well, some of us are actually going over 
there fairly soon. So, we may see you sooner than maybe you 
would like.
    Ambassador Jones. Oh, no. Anytime is great.
    Senator Hagel. Nonetheless, I think we are going to be 
traveling.
    I am sorry that you had to deal with the B team here today. 
The A team had other things, obviously, involved in farm 
policy, which is not a passing interest of mine. But, 
nonetheless, I am grateful that you would come up, as is the 
committee.
    Ambassador Jones. Absolutely. Anytime.
    Senator Hagel. We wish you much success. Thank you for your 
service.
    Ambassador Jones. Thank you, Senator.
    Senator Hagel. Why do we not go ahead and start the second 
panel. And then if we have to recess the second panel, we will 
recess to go vote and come back. So, if our witnesses for the 
second panel, Dr. Starr and Dr. Hill, would come up, the 
infamous, much quoted Dr. Hill. I apologize for this bizarre 
process that you are participating in, but if you have 
testified before, you know it is fairly standard procedure. So, 
thank you both for coming forward, and we are grateful that you 
would take some time to share your thoughts with us today.
    As I said, we are supposed to have a vote at 4, but it is 
now 5 after. So, we will continue and get as much done as we 
can before we would recess for a vote.
    So, let me begin by introducing S. Frederick Starr, 
chairman, Central Asia-Caucasus Institute, Johns Hopkins 
University, and our next witness after Dr. Starr will be Dr. 
Fiona Hill who is a fellow, Foreign Policy Studies Program, The 
Brookings Institution, Washington, DC. As I said, we have 
already been introduced to Dr. Hill through my quoting 
incorrectly or correctly from her testimony. So, thank you 
again, and Dr. Starr, please proceed.

    STATEMENT OF S. FREDERICK STARR, CHAIRMAN, CENTRAL ASIA-
  CAUCASUS INSTITUTE, NITZE SCHOOL OF ADVANCED INTERNATIONAL 
       STUDIES, JOHNS HOPKINS UNIVERSITY, WASHINGTON, DC

    Dr. Starr. Thank you very much. I want to add 
congratulations, Senator Hagel, to your entire subcommittee on 
its existence. Up until very recently there was no map 
available in the U.S. Government that put this region at the 
center. It was always an appendage of something else. I noticed 
in the previous discussion this afternoon I stopped counting 
the mentions of Russia at 18. There was no mention of China. 
There was no mention of Turkey. This subsumed this region under 
other headings. The existence of your subcommittee marks the 
beginning, let us hope, of a policy on this area as such.
    I think we might note that the past 10 years we have gone 
through phases of euphoria and deep gloom about every country 
in the region. We are continually assigning them white hats or 
black hats or shifting the hats according to the fashion in 
Washington. It seems to me this represents the product of not 
having a real policy, a really long-term one, and that is what 
I want to just take a few minutes to speak about. I address it 
in more detail in my paper.
    The region itself is expanding with the reentry of 
Afghanistan on to the scene where it was historically, but the 
military phase of this operation will, at a certain point, be 
over. The question then will be, what do we do with regard to 
Central Asia?
    Now, what we do not do is walk away again. But 
acknowledging that, what do we do? And I would submit that the 
basic truth upon which any security policy in this whole region 
is going to be built is that no single country or pair of 
countries or small grouping of countries can provide an 
adequate security environment for Central Asia. What I am 
saying is that the long-term presence in the region of either 
American troops or Russian troops, alone or together, will not 
advance the security of Central Asia, nor will any other 
combination of outside forces achieve this. This means that we 
should stay not permanently, but long enough to preside over 
the creation of some solid security conditions in the region. 
Now, what does that mean?
    If no single country can provide a security umbrella for 
Central Asia or even pair of countries, the only workable long-
term security structure would be one in which all foreign 
troops are withdrawn from the region. The principle should be 
very simply we will withdraw our troops from Central Asia, but 
you must do the same or not introduce your forces if they are 
not there now. The result will be a Central Asia and, let us 
hope, Afghanistan without foreign troops.
    Now, how do you get to that situation? You do it through a 
process of dialog based on the fact that we have been there and 
we have been addressing the No. 1 security priority of every 
country in the region and Russia. We should not be treating 
this as a deal in which we should offer some payment for their 
cooperation because we have been addressing their No. 1 
problem, including Russia's. There we should just as reasonably 
be asking what payment comes from the other direction.
    Now, my point is very simply we will be in a position where 
the United States can, through a multilateral process of 
dialog, create a demilitarized Central Asia in which none of 
the four nuclear powers who surround it or one possible future 
nuclear power and Turkey and NATO power, in which none of these 
countries would attempt to control or dominate the region, in 
which all of them would understand that we will restrain 
ourselves if you all do the same, as well as the United States. 
This is nobody's first choice. Everyone would like a dominant 
voice. It is everybody's second choice, and I think we can 
bring it about.
    If that happens, we can then move reasonably to address 
political issues in the region. If the security threats of 
Islamic radicalism, terrorism, and drugs have been the 
rationale for many suppressions of democratic reform, the 
retarding of progress in the economic area, if this has 
justified the suppression of human rights, then our addressing 
the big security environment creates conditions under which we 
can reasonably open up a dialog about political betterment.
    Now, that finally will not work unless there is something 
happening on the economic side, and that is underway. More is 
needed but not in the form of aid. It is simply opening markets 
and trade opportunities to the south, particularly to the port 
of Karachi. That will all happen.
    My point is this. The United States needs a long-term 
strategy. We do not have a long-term strategy. We can no longer 
talk about this as--how many references did we hear in the 
previous testimony to a zero sum game with Russia. Not one 
mention of China, whose interests in the region are at least as 
great as Russia's and growing much faster. The other neighbors 
all have serious interests in it. It is everybody's back yard.
    We can avert a dangerous security situation in this region 
by moving toward a general demilitarization, the exclusion of 
foreign forces from the entire region, the creation of a 
process of dialog with all the neighbors, in which we would 
participate, in which everyone would understand the basis for 
mutual self-restraint. That creates the necessary preconditions 
for political betterment, improvement of human rights, and the 
development of the economies.
    Thank you very much.
    [The prepared statement of Dr. Starr follows:]

   Prepared Statement of S. Frederick Starr, Chairman, Central Asia-
  Caucasus Institute, Nitze School of Advanced International Studies, 
                        Johns Hopkins University

THE WAR AGAINST TERRORISM AND U.S. BILATERAL RELATIONS WITH THE NATIONS 
                            OF CENTRAL ASIA

    Mr. Chairman and Members of the Subcommittee: Ten years ago there 
was not a single map in the U.S. Government that placed Central Asia at 
the center of anything. Either it was on the southern edge of the so-
called ``former Soviet Union,'' the far west of Asia, or the extreme 
east of the Middle East. Your sub-committee, established before 
September 11, marks the U.S.'s acceptance of an important reality, 
namely, that this region, surrounded by four nuclear powers (and 
perhaps, soon, a fifth) and a NATO member, is important in its own 
right. We should not consider it an appendage of anything else, or any 
one country's ``backyard.''
    Thanks to Soviet rule, Central Asia boasts one of the most literate 
and numerate Muslim populations anywhere, and is ruled by secular 
governments. Due also to Soviet rule, nearly two fifths of its native 
peoples died in savage collectivization. The rest were left with a 
heritage of authoritarianism, corruption, and disrespect for law and 
human rights that persists to this day.
    In these respects the states of Central Asia mirror the fates of 
Russia, Ukraine, and other countries formerly ruled from Moscow. We are 
only gradually coming to appreciate the seriousness of the birth 
defects present in all the post-Soviet states. It is important that we 
recognize this, and apply the same standards and extend the same 
patience to all, rather than selectively, according to who happens to 
be in favor in Washington at the moment. Bluntly, we cannot nod at 
authoritarianism in Moscow and preach against it in Central Asia.
    For all their shortcomings, no Central Asian state has suffered the 
collapse of health and the shortening of human life that we have seen 
in Russia, nor the government's callous disregard of these conditions. 
Several Central Asian states, including Uzbekistan, invest more heavily 
in education than Russia, and bravely send thousands of their young 
people abroad to acquire modern and western ways that must eventually 
clash with current realities at home.
    Ten years of independence is a very short time. In 1786 the U.S. 
had no Supreme Court, slavery existed even in parts of the North, women 
were excluded from citizenship, and one of the models for the White 
House included a throne room.
    Let your sub-committee therefore approach its work with a long and 
strategic view, with both tenacity and patience, and in the confidence 
that by addressing the specific needs of this region the United States 
will at the same time advance the values for which this country stands.
Insecurity and Risk for the Central Asians and the U.S.
    There exists a fundamental misunderstanding about the relationship 
of Central Asian states (and Russia, for that matter) to the war on 
terrorism. We hear about their ``cooperation with the U.S.,'' as if 
they are doing us a favor that should be rewarded. Nothing could be 
further from the truth. For a decade, the Central Asian states have 
faced the threat of Islamic radicalism, terrorism, and drug 
trafficking, with which the first two are closely linked. All of the 
Central Asian states have identified these issues as their main 
security threat, and Afghanistan as the locus of that threat. So has 
Russia, which has used the issue to justify the stationing of troops in 
four of the five countries of the region.
    To address this threat, Central Asian governments have arrested 
countless suspects, abrogating the civil rights of many who are 
doubtless innocent. All of the countries have resorted to the same 
primitive policies, the differences among them being only of degree, 
not of kind.
    Some commentators have argued that these measures are largely 
responsible for the growth of terrorism in the first place. There is 
some truth in this, but we must be careful in levying this charge. When 
we demand that Messers, Musharraf, Arafat, or Mubarrak crack down hard 
on jihhadist groups, Palestinian terrorists, or Muslim brotherhoods, 
are we not asking them to do exactly what we criticize Central Asian 
governments for doing? Americans bridle when our critics abroad blame 
September 11 on the U.S.' actions, yet we come close to doing the same 
thing with respect to the Central Asians.
    Both the Central Asians and the Russians, who have claimed a 
special role in the region, have been notably unsuccessful in their 
campaigns against terrorism. But now the situation is changing, thanks 
to the United States. We are risking American soldiers' lives and 
expending billions of our citizens' resources to address a threat that 
hangs over their countries as much as ours. The fact that we have our 
own interests at heart in no way qualifies this truth. Early signs of 
progress in the war on terrorism already exceed what has been 
accomplished locally in a decade.
    And so let us cease all talk of some payment owed Central Asians 
(or Russians) for their cooperation. If anything, it is they who should 
thank us.
    However, this does not mean that U.S. actions are without risk to 
the Central Asian states. Quite the contrary. For a decade they have 
faced not only the dangers arising from Afghanistan but also the 
constant threat posed by certain groups in Russia, notably the military 
and security forces, who are not yet reconciled to the loss of empire. 
This ``Imperial hangover'' is not unique to Russia. France exhibited 
the same tendencies in Algeria, the Spanish in Cuba and Chile, and the 
British when they burned the White House in 1812. This imperial 
hangover will eventually pass, but for the time being it remains a 
threat. It means that the Central Asians, after cooperating with the 
U.S., will inevitably face redoubled pressure from Russia if we leave 
abruptly and without attending to the long-term security needs of the 
region. That we have looked kindly into Mr. Putin's soul does not 
change this reality.
    The Central Asians face a similar danger with respect to our 
efforts in Afghanistan. Some Americans hold that we should destroy Bin 
Laden, al-Qaeda, and the Taliban and then leave the post-war 
stabilization and reconstruction to others. Such a course runs the 
danger of condemning all Central Asia to further waves of instability 
from the South. But in the next round it will not only be Russia that 
is tempted to throw its weight around in the region but possibly China, 
or even Iran or India. All have as much right to claim Central Asia as 
their ``backyard'' as Russia has had until now. Central Asia may be a 
distant region but when these nuclear powers begin bumping heads there 
it will create terrifying threats to world peace that the U.S. cannot 
ignore.

A Three-Pronged U.S. Strategy for Post-War Central Asia
    This prospect, along with the unresolved problem of Russia's 
imperial hangover, is the reality that the Central Asian states must 
face if the U.S. precipitously withdraws from their region once the 
military campaign has achieved its goals. It requires that the United 
States develop and implement a longer-term strategy for regional 
security in Central Asia of a sort which, until this moment, has 
existed only in fragmentary form, if at all. Such a strategy is 
essential for the viability and sustainability of the states of Central 
Asia. No less, it is essential for the United States' own long-term 
interest in helping build a stable world.
    What, then, are the elements of such a post-war strategy for 
Central Asia? The question demands the most serious attention of this 
sub-committee and of the American government as a whole. At the risk of 
simplification, I would suggest that it must contain three elements, 
pertaining to (1) security, (2) politics, and (3) economics.
Security: An International Concert
    The basic truth upon which any security policy for Central Asia 
must be grounded is that no single country, or pair of countries, can 
provide an adequate security environment for the Central Asian region. 
Bordered by nuclear states and formidable regional powers, all of which 
have close historic and cultural ties with the region, Central Asia 
cannot depend for its security on any one of them without imperiling 
the security of all the others.
    Thus, the long-term presence in the region of either American or 
Russian troops, alone or together, will not advance the long-term 
security of Central Asia. Nor will any other combination of outside 
forces achieve this end. This means that American forces should neither 
stay permanently in Central Asia nor leave quickly and permit the 
situation to revert to the status ante quem, with only Russian forces 
there.
    The best and only alternative is for all external military forces 
to leave Central Asia. The same holds for Afghanistan which is, after 
all, the historic heart of the region. But this will not be easily 
achieved, since Russia and, at some future point, China or any of the 
other powerful neighbors, might aspire to fill what it perceives as a 
vacuum of power. The United States must therefore be prepared to keep 
its forces in the region until a comprehensive security structure is in 
place. That this is not only possible but likely is indicated by 
Secretary of State Powell's statement of 11 December that the U.S. 
intends to maintain a military presence in Central Asia for some time.
    The simple notion underlying a workable long-term security 
structure should be ``We will withdraw our troops from Central Asia but 
you must do the same, or not introduce your forces if they are not 
there now.'' The result will be a Central Asia without foreign forces.
    Such a condition is not the first choice of any of the powerful 
neighbors. All, and especially Russia, would prefer, or at some future 
point aspire, to be the key player in the region. However, all would 
find an ``all foreign forces out'' arrangement to be their second 
choice, provided the other neighboring powers and the United States 
agree to abide by the same understanding.
    This forms the basis for what in earlier times was called a 
``concert'' of powers. The United States should take the lead in 
forging such a concert. It must include China, India, Iran, Pakistan, 
Russia, and Turkey, as well as the United States and NATO.
    To achieve such an understanding, the United States should initiate 
a dialogue with each of these states, leading to joint discussions of 
the entire group, and eventually to a formal agreement. Such an 
arrangement would not prevent the Central Asian states or Afghanistan 
from participating in security links with any external powers, provided 
these do not include the introduction of foreign troops onto the 
territory of Central Asia and Afghanistan. After the concert is brought 
into being it would have to be maintained through a steady process of 
dialogue and meetings involving the participants and the Central Asian 
states themselves. Through such process, potential threats to the 
concert would be identified and addressed through joint action.
    The exclusion of foreign troops from Central Asia and Afghanistan 
will not be easy. Only the United States is in a position to initiate 
it, by renouncing unilateralism on its own part on the condition that 
others renounce it as well. Whatever the difficulties of creating such 
a concert it has the immense virtue of not being directed against any 
state or its interests.

Politics: Openness Built on Security
    The development of these security arrangements creates the 
essential precondition for political development in Central Asia and 
Afghanistan. Without exception, Central Asian governments have 
justified their concentration of power in the hands of the executive, 
the avoidance of elections, the retarded development of participatory 
government, and their curtailment of civil liberties in terms of 
national security. The establishment of an internationally protected 
security environment will remove this element as an overriding factor 
In domestic politics.
    Under these circumstances, the United States and other open 
societies can reasonably propose that the Central Asian states take 
concrete steps towards establishing the rule of law and building 
democratic institutions on their territories. Expectations of greater 
openness must extend beyond domestic affairs to international relations 
within the region. The opening of borders, removal of onerous tariffs, 
and greater regional cooperation can then become practical objectives 
of U.S. policy and not merely declamatory goals promoted through 
fruitless hectoring, as has been the case for a decade.
    None of this will be possible unless the Central Asian countries 
build military and security forces that are modern, adequate for their 
needs, and appropriate to open societies. The United States, together 
with other partners, should support this development within the 
framework of the security concert.
Economic Development to Support Open Societies in a Secure Environment
    Both the security arrangements and political reforms suggested 
above will not survive without economic development. The deepest source 
of internal instability throughout the region is neither religious 
extremism nor ethnic conflict but poverty. Widespread throughout the 
region since Soviet times, poverty is particularly acute in the vast 
mountain zones defined by the Karakorum, Hindukush, Pamirs, Tienshan, 
Kohibaba, Alatau, and Altai ranges. It is no accident that these, 
rather than the steppe lands, have been the venue for most armed 
conflict in the area.
    The most pressing needs of economic development are surprisingly 
simple: to enable Central Asians and Afghans to feed their families and 
create jobs for themselves and others. Until these are met there will 
be no end to opium production and drug trafficking. Until they are met 
there will be no peace in the region. This will not be accomplished 
through vast infrastructure projects or a Central Asian Marshall Plan. 
Instead, the focus should be on village level agriculture, the 
development of small businesses, and the removal of impediments to 
entrepreneurship at all levels.
    Fortunately, projects already underway in the region are proving 
that these are attainable goals. The University of Central Asia being 
developed by the presidents of Kazakstan, Kyrgyzstan and Tajikistan and 
the Aga Khan aspires to train a new generation of Central Asians who 
will lead economic development efforts in both the private and public 
sectors throughout the region. Many international organizations and 
NGOs have undertaken promising initiatives that foster the same ends. 
Rather than create new bureaucracies, American support should focus on 
these proven models, expanding and replicating them. The common key to 
their success is that they all work with, rather than on, the local 
communities, and build from the ground up rather than from the 
bureaucracies down.
    A major impediment to economic development throughout the region is 
its isolation, which imposes a ``distance tariff'' on every raw 
material or product imported to, or exported from, Central Asia. 
Karachi is the region's nearest port, but for most of the twentieth 
century it has been closed to trade from Central Asia, first by the 
impassable southern border of the USSR and then by the chaos in 
Afghanistan. It is therefore urgently important to open up the ancient 
trade routes that link Central Asia and Afghanistan to their natural 
ports and trading partners to the South, whether in Pakistan, India, or 
Iran. The renewal of such commerce will not only bring investment into 
Central Asia and Afghanistan but will soften the border tensions that 
are the heritage of half a century of conflict throughout this part of 
Asia.

An Attainable Future?
    A skeptic might ask whether the policies suggested here have any 
realistic chance of success. In each area--security, political change, 
and economic development--the obstacles are real and must not be 
minimized. Yet to a significant degree they are offset by positive 
factors that are all too easily overlooked.

  - None of these initiatives is directed against any state.
  - None of the three initiatives calls for unilateral action by the 
        United States. All are by their nature collaborative and hence 
        share the risk.
  - While all three areas require money, the expenditures are far less 
        than the vast sums usually mentioned in connection with 
        fanciful projects of ``state building.''
  - All build on the good will generated by the United States' 
        successful completion of the military phase of the war against 
        terrorism in this region.
  - While all three require sustained American attention to succeed, 
        none leaves the United States with onerous and enduring 
        military or financial obligations.
  - Compared with the alternative--a renewed slide into poverty, 
        authoritarianism, drug trafficking, and armed conflict--the 
        cost in attention and money is modest.

    Senator Hagel. Dr. Starr, thank you.
    Dr. Hill.

  STATEMENT OF DR. FIONA HILL, FELLOW, FOREIGN POLICY STUDIES 
       PROGRAM, THE BROOKINGS INSTITUTION, WASHINGTON, DC

    Dr. Hill. Thank you, Senator Hagel. For my oral statement 
today, I am going to summarize my written testimony, and I 
would request that the full text be included in the hearing 
record.
    Senator Hagel. Your full text will be, as well as Dr. 
Starr's.
    Dr. Hill. Thank you very much.
    Like Dr. Starr, I am going to keep my comments brief too so 
we can move on to your questions.
    First of all, I wanted to state that the contributions of 
the Central Asian states to the U.S. campaign against terrorism 
and specifically to the current campaign in Afghanistan have 
been significant and unprecedented. As Dr. Starr said, the 
United States now has a broad opportunity to forge strong 
relationships with these states.
    The Central Asian countries are positively disposed toward 
close relations with the United States. Over the last decade, 
they have been engaged, as we heard from Ambassador Jones, in a 
full range of U.S.-led assistance programs, and bilateral 
military relations and joint exercises with the Central Asian 
states have led to the close cooperation we see today in the 
campaign against terrorism.
    The Central Asian states share the U.S. goals and concerns 
in Afghanistan. They seek to prevent the use of Afghan 
territory as a training and staging ground for terrorist groups 
and as a source of heroin production and trafficking. On this 
basis, the United States must now decide how and to what degree 
it wants to move forward and set priorities in its relations 
with the Central Asian states. So, I am going to single out 
three of these priorities in the context of the campaign in 
Afghanistan.
    The first is ending the war in Afghanistan and eliminating 
the al-Qaeda network and Taliban leadership. And the United 
States will continue to need the cooperation and support of the 
Central Asian states to effect this. In particular, it will 
need access to bases, airports, and other facilities, as has 
already been offered.
    The second is bringing long-term stability to Afghanistan. 
To avoid a resumption of civil war in Afghanistan, the United 
States and its allies will have to ensure that the Central 
Asian actors relinquish their ties to regional warlords and 
give their full support to the new central government in Kabul.
    The third priority is draining the swamp that has produced 
and supported radical groups in Central and South Asia. The 
Central Asian states, particularly Tajikistan, have many of the 
same elements that facilitated the rise of the Taliban and the 
infiltration of al-Qaeda in Afghanistan. Without an approach 
that encompasses Central Asia, as well as Afghanistan, Taliban 
and al-Qaeda-like networks could emerge in Central Asia itself.
    These three priorities point to the importance of long-term 
U.S. political and economic engagement in Central Asia even if 
the dynamic of the war against terrorism precludes long-term 
U.S. military presence and even if the United States must move 
on to deal with other targets.
    But the United States faces many challenges in Central 
Asia, not least in dealing with its principal ally since 
September, Uzbekistan. President Karimov is currently engaged 
in efforts to extend his term in office, and Uzbekistan has 
been reluctant to open the Friendship Bridge at Termez to 
permit humanitarian shipments into Afghanistan without 
assurances of significant U.S. aid. Although Uzbekistan is the 
most strategically located of the Central Asian states, with 
the largest population and the most significant military 
capabilities, it is a problematic partner for the United 
States.
    What I had said in my written testimony was that Uzbekistan 
is a source of regional tension. Let me stress I did not say 
instability. I said tension. So, it is a source of regional 
tension rather than stability.
    Uzbekistan has disputes with all of its neighbors, and 
frankly it has become a log jam for regional economic 
development. Its position at the heart of Central Asia makes it 
indispensable to regional communications and trade. Tajikistan, 
for example, is almost wholly dependent on Uzbekistan for 
contacts with the outside world and it has seen its trade 
ruptured as the Uzbek Government has begun to fortify and mine 
its borders.
    Allowing Uzbekistan to cutoff Tajikistan, which has already 
been the breeding ground for radical militant groups and a 
civil war, is particularly dangerous, especially if we want to 
avoid a repetition of the situation in Afghanistan.
    Prior to the war in Afghanistan, Uzbekistan was criticized 
in the U.S. Government and Congress for well-documented human 
rights abuses and infringements of political and religious 
freedoms. Since the war began in Afghanistan, this criticism 
has been muted. In fact, it has almost been silenced.
    And in 3 short months, President Karimov of Uzbekistan has 
been elevated from a Central Asian autocrat to a strategic 
partner of the United States. By leveraging his few assets of 
value to the United States, in this case bases and a bridge, he 
has extended his term and secured aid. I would argue that 
absent the war in Afghanistan, this would not have happened. In 
pursuit of the war in Afghanistan, the United States may have 
consolidated and bolstered another authoritarian and bankrupt 
regime in Central Asia and set back the prospects for regional 
development and stability.
    I would like to underscore what Dr. Starr just said, that 
the United States needs to engage in Central Asia in a way that 
factors in all the Central Asian states rather than relying on 
one like Uzbekistan. In fact, it is the weakest states like 
Tajikistan and Kyrgyzstan that need bolstering the most. And 
Turkmenistan that borders Iran and Afghanistan cannot be 
completely ignored. The Central Asian states are fragile and 
interdependent, and for future development, the connections 
between and among them must be restored. To stress again, if 
the United States does not engage Central Asia, then it also 
risks the failure of its efforts to ensure stability in 
Afghanistan.
    So, in looking at the next steps for U.S. policy in Central 
Asia, we need to have some immediate, short-term and long-term 
goals. In the immediate term, we should not congratulate 
President Karimov on the extension of his Presidential term. 
The U.S. Government and Congress should continue to protest the 
infringements on rights and freedoms in Uzbekistan, and they 
should insist on movement toward political and economic reform, 
as Ambassador Jones outlined in her testimony.
    We can only do this, though, if we are clear that we are 
engaged in Central Asia for the long haul, and that we will not 
simply move on in another 3 months' time. We need to 
demonstrate that we care about the future of Central Asia 
through more high-level visits to the region and movement on 
commitments for new programs in the Congress and the 
Government.
    Now, again, in the immediate term, we should not rush to 
fund and initiate new security and military programs with 
Uzbekistan. This will simply facilitate the creation of 
``fortress Uzbekistan'' and bolster its negative leverage with 
its neighbors. Pentagon programs for Uzbekistan, as well as for 
other Central Asian states, should be brought into line with 
State Department and other initiatives that emphasize internal 
development and regional cooperation not just security.
    Again, in the short term, we should continue our engagement 
with all the other Central Asian states. For example, in the 
last several weeks, the U.S. Government has moved to develop a 
new relationship with Tajikistan, and Congress should support 
this to the fullest extent possible.
    Also in the short term we need to foster realistic 
expectations on the part of Central Asian leaders about the 
extent and the kind of aid that will be forthcoming. The United 
States and other bilateral donors can provide significant 
funding, but they have serious limitations. All the Central 
Asian states have a low absorptive capacity for assistance. 
There are few actors to work with outside the central 
government and only a few successful development projects in 
the region which cannot always be easily replicated.
    So, if we are to ensure stability in the long term, as Dr. 
Starr also suggested, we are going to need a systematic 
approach to regional development that fosters coordination 
among all programs and donors and one that begins right now. 
The United States has already taken the lead with Japan and the 
European Union to convene a series of donor conferences and 
coordination mechanisms for Afghanistan. I recommend that we 
should employ a similar model for Central Asia. If we are to 
avoid its future Afghanicization, Central Asia will require the 
same level of intensity and attention to detail that we are 
currently paying to Afghanistan.
    Thanks for your attention, Senator Hagel.
    [The prepared statement of Dr. Hill follows:]

 Prepared Statement of Dr. Fiona Hill, Fellow, Foreign Policy Studies 
                   Program, The Brookings Institution

                     CONTRIBUTIONS TO THE CAMPAIGN

    The contributions of the Central Asian states to the U.S. campaign 
against terrorism and specifically to the current campaign in 
Afghanistan have been significant and unprecedented. This is a region 
in which the United States had no history of prior engagement before 
the collapse of the USSR in 1991, and which was viewed as firmly within 
the sphere of Russia's influence throughout the 1990s. At the end of 
2001, we now have U.S. troops operating in the Central Asian heartland. 
Of the three states bordering Afghanistan, Uzbekistan and Tajikistan 
have offered basing facilities for U.S. and allied forces, while 
Turkmenistan has offered logistical support and search and rescue 
provisions. All three have served as conduits for U.S. and other 
international humanitarian assistance to the population of Afghanistan. 
Along with Kazakhstan and Kyrgyzstan, the states have provided over-
flight rights and intelligence sharing. Kyrgyzstan's parliament has 
also recently voted to allow the United States and its allies to use 
its airports for military and humanitarian activities in Afghanistan 
for up to a year. Building upon this support from the last three 
months, the United States now has a broader opportunity to forge strong 
relationships in a critical strategic region of the globe where it has 
had few real allies.
    The Central Asian states are positively disposed toward close 
relations with the United States. Over the last decade, they have been 
engaged in a full range of U.S.-led political, economic and military 
assistance and development programs. Bilateral U.S. military relations, 
joint exercises with Central Asian states, and a robust set of Pentagon 
special forces training programs for Uzbekistan since the mid-1990s, 
have clearly been translated into the close cooperation that we see 
today in the campaign in Afghanistan.

                              SHARED GOALS

    In Afghanistan, the Central Asian states share U.S. concerns about 
instability and the use of the territory to their south as a training 
and staging ground for militant and terrorist groups. Central Asian 
states have suffered from their own problems with terrorism. Since the 
late 1990s, Uzbekistan, Tajikistan and Kyrgyzstan have experienced 
raids and attacks by forces of the Islamic Movement of Uzbekistan, 
which became closely tied to the Taliban in Afghanistan in 2000-2001. 
Uzbekistan and Tajikistan have lent support to factions of the Northern 
Alliance in their struggle against the Taliban. Tajikistan, in 
particular, frequently served as a base for the forces of the 
assassinated Northern Alliance leader and ethnic Tajik, Ahmed Shah 
Masoud, and funneled supplies and weapons from Russia and other backers 
of the Alliance through its territory. Uzbekistan, Tajikistan, and 
Turkmenistan, as immediate neighbors of Afghanistan, also played an 
active role in the United Nations-sponsored ``6 + 2'' process to find a 
negotiated settlement for the Afghan civil war. Kazakhstan, further to 
the north, initiated parallel efforts to find a solution to the 
conflict, pushing the U.N., the U.S. and other major international 
actors to maintain their focus on Afghanistan, and offering its 
territory and good auspices for peace talks among the various Afghan 
factions.
    Looking to future reconstruction efforts in Afghanistan, as the 
current campaign moves into a new military and political phase, the 
Central Asian states have important roles to play. They have close 
historical and trade links to Afghanistan and are part of Afghanistan's 
North-South communications axis stretching from Europe and Russia, to 
South Asia and the Indian subcontinent. In the Soviet period, this axis 
was dominated by flows of armaments and economic assistance from Moscow 
to Afghanistan. In the 1990s, the axis has been dominated by weapons 
flows south to the Northern Alliance from Russia, Uzbekistan and other 
states, and by drugs and armed militants flowing north into Central 
Asia from Afghanistan.
    In the 1990s, Central Asia became the primary conduit for heroin 
trafficking from Afghanistan to Russia and from there to Eastern and 
Western Europe. This has spawned a huge intravenous drug use problem in 
Russia and Ukraine, and a public health disaster that is now 
approaching catastrophic proportions with the rapid increase of HIV 
infection and AIDS, extending back along the drug routes themselves 
into Central Asia. Efforts by regional governments to tackle this 
problem have been stymied by the continuation of civil war in 
Afghanistan and direct linkages between regional militias and the drug 
trade. The states will welcome U.S. and international programs to 
eradicate heroin production and trafficking in Afghanistan as part of 
long-term reconstruction efforts, and the primary challenge in the 
coming years will be to transform this North-South axis into a route 
for licit rather than illicit trade. In this regard, Central Asia's 
energy resources may eventually come to play an important role. 
Projects for transporting gas from Turkmenistan and the broader Caspian 
Basin across Afghanistan to South Asia, which were stymied by the civil 
war in Afghanistan, could one day be revived in the context of a 
broader effort to restore and improve road, rail and other 
transportation and communication links.
    Some projects are already underway in the region with financial 
assistance from the Asia Development Bank and the European Bank for 
Reconstruction and Development. Central Asian states have been engaged 
in organizations to promote broader regional cooperation and 
development. This includes initiatives sponsored by the European Union, 
trans-regional groups of other former Soviet republics extending to the 
Caucasus and the Black Sea, and the Shanghai Cooperation Organization, 
which brings in Russia and China to resolve outstanding border and 
other disputes, promote trade, and combat terrorism. In the last two 
years, there have been several steps taken to set up counter-terrorism 
centers in the region, most recently in Bishkek, the capital of 
Kyrgyzstan, underscoring the commitment of the states to tackling 
regional issues.
    Beyond its bilateral assistance programs and relations with 
individual states, the United States, to date, has not embarked on a 
more comprehensive effort in Central Asia and has not participated 
actively in regional organizations. In part, this was because prior to 
September 11, 2001, U.S. planners did not perceive a vital American 
interest in the broader region. The campaign against the Taliban and 
the al-Qaeda network in Afghanistan has provided that vital interest. 
The United States must now decide how, and to what degree, it wants to 
move forward and set priorities in its relations with the Central Asian 
states.

               PRIORITIES FOR U.S. POLICY IN CENTRAL ASIA

    I will single out three priorities in the context of the campaign 
in Afghanistan:
    The first is ending the war in Afghanistan and eliminating the al-
Qaeda network and the Taliban leadership. The U.S. will continue to 
need the cooperation and support of the Central Asian states to effect 
this. In particular, it will need access to bases, airports and other 
facilities.
    The second is bringing long-term stability to Afghanistan, and here 
Central Asia plays an important role. The war may be over soon, but 
peace is by no means assured in Afghanistan. There are real short and 
long-term risks of a resumption of civil war. Other international 
experience and Afghanistan's own history suggest that the Taliban will 
be difficult to eradicate as a fighting force and political influence. 
Indeed, as we currently see in Afghanistan, many Taliban leaders and 
rank and file fighters have simply switched sides, reverting to their 
former ``Afghan'' rather than ``Talib'' identities. They have not 
necessarily shed their beliefs or commitment to a religiously based 
rather than secular society. Irrespective of the present agreements on 
the structure of a new government, support for a new project of state 
building will be thinly rooted and fragile. There will be little 
tolerance for inevitable mistakes unless there is some appreciable and 
immediate improvement in the lives of the general population.
    In addition, many former Mujaheddin fighters and leaders linked 
with the Northern Alliance have been left out of the new interim 
government recently formed in Bonn. Some of these leaders, such as 
General Abdur Rashid Dostum, and former Afghan President Burhanuddin 
Rabbani, have considerable support in Central Asia. Uzbekistan has 
served as Dostum's patron, while Russia has supported Rabbani and other 
ethnic Tajik leaders, using Tajikistan as a base for contacts. Neither 
is likely to withdraw this support in the immediate future, thus 
bolstering their proxies in opposition to the new government and 
contributing to the fracturing of Afghan politics. This could be 
particularly difficult in the case of Dostum, who has been restored to 
power in his former regional stronghold in Mazar-e Sharif near the 
border with Uzbekistan. If Dostum's past conduct is anything to judge 
by, he will likely govern Mazar-e Sharif as his personal fiefdom, 
forging ties with Tashkent rather than Kabul, and encouraging the 
continued fragmentation rather than consolidation of the Afghan state. 
If stability is to be ensured in Afghanistan, Uzbekistan, Russia and 
other Central Asian actors will have to relinquish their ties to these 
old leaders and give their full support to the new government in Kabul.
    The third priority--and closely linked to the second--is ``draining 
the swamp'' that has produced and supported radical militant groups in 
Central and South Asia. This is fostered by weak central government and 
the disintegration of state institutions, a collapsed economy, crushing 
poverty and the absence of a social safety net, high birthrates, high 
unemployment, poor and inadequate education, widespread illiteracy, the 
erosion of traditional social institutions and the infiltration of 
radical ideologies, free flows of drugs and illicit weapons, and 
isolation from all but the most immediate of neighbors. The Central 
Asian states, particularly Tajikistan, have many of the same elements 
that Afghanistan possessed in facilitating the rise of the Taliban and 
ultimately becoming a haven to Osama bin Laden and al-Qaeda. Without an 
approach to the reconstruction and development of the region that 
encompasses Central Asia as well as Afghanistan, we may simply see the 
shift of the current problems from the south to the north, and the 
emergence of Taliban and al-Qaeda-like movements in Central Asia 
itself.
    The second and third priorities point to the importance of long-
term U.S. political and economic engagement in Central Asia, even if 
the dynamic of the current war against terrorism precludes a long-term 
military presence as other networks outside the region are targeted and 
tackled.

                          REGIONAL CHALLENGES

    In expanding and consolidating its relations with the Central Asian 
states, however, the U.S. faces some challenges-specifically to its 
long-term goals of promoting stability, market reform, and 
democratization in developing countries worldwide. Two recent incidents 
underscore this fact and should give pause for consideration of the 
current trajectory of U.S. strategy in Central Asia, which has 
emphasized close relations with Uzbekistan since September 2001.
    First, on December 6, on the eve of Secretary of State Colin 
Powell's visit to Uzbekistan this past weekend, Uzbekistan's parliament 
endorsed a proposal to extend President Islam Karimov's current term 
from 5 to 7 years and hold a referendum in January 2002 that could 
potentially have him declared ``President for Life.'' This will put 
Karimov on par with his neighbor, President Saparmurat Niyazov of 
Turkmenistan, who has devoted his life tenure to the restoration of an 
old-style Soviet personality cult and turned Turkmenistan into a 
Central Asian version of North Korea (minus the potential weapons of 
mass destruction).
    Second, in spite of considerable pressure from the United States 
and international agencies, the Uzbek government dragged its feet for 
weeks on opening the Friendship Bridge at Termez to permit humanitarian 
shipments to cross into Afghanistan. Security concerns, including 
unsubstantiated reports of Taliban forces massing across the river, 
were accompanied by questions about the structural integrity of the 
bridge. But the real issue was the extent and nature of economic 
assistance that would be forthcoming to Uzbekistan from the United 
States. In late November a high-level Uzbek delegation visited 
Washington, DC to press their case, and it was only after the Uzbek 
leadership had been assured that there would be significant 
assistance--to the tune of a reported pledge of $100 million--that 
approval was given for opening the bridge.

             RISKS IN A CLOSE U.S.-UZBEKISTAN RELATIONSHIP

    Uzbekistan may be the most strategically located of the Central 
Asian states, with the largest population and the most significant 
military capabilities and resources, but it is a problematic long-term 
partner for the United States in Central Asia. The increased emphasis 
on relations with Uzbekistan in Washington, DC since September is 
troubling.
    Uzbekistan is a source of regional tension, rather than stability, 
and a logjam for regional development. It has water and territorial 
disputes with all of its neighbors. It has periodically used energy 
exports to Tajikistan and Kyrgyzstan as a lever to pressure their 
governments to make concessions in some of these disputes. It has begun 
to mine its borders to guard against militant incursions without 
consulting its neighbors, and has ruptured communication routes from 
Tajikistan, southern Kyrgyzstan and the sensitive Ferghana Valley that 
straddles the three countries. Uzbek mines have resulted in the death 
and injury of more than 50 people this year in Tajikistan alone. The 
casualties have been inhabitants of border regions visiting family or 
tending livestock, not members of radical forces.
    Uzbekistan is also in perpetual domestic economic crisis. Indeed, 
crisis has become the status quo. Through a mixture of currency and 
exchange rate controls, state orders for its two main export 
commodities, cotton and wheat, and the good fortune of being self-
sufficient in energy, Uzbekistan has muddled along for several years 
now, defying expectations of collapse and refusing to deregulate and 
open up its economy. Its system is similar to the unreformed Soviet 
Union of the late 1980s, in stark contrast to neighboring Kazakhstan 
and Kyrgyzstan. If the current trajectory continues, Uzbekistan will 
become a closed state like Turkmenistan.
    While Turkmenistan's position on the periphery means it can 
effectively be avoided in regional projects, Uzbekistan's position at 
the heart of Central Asia makes it indispensable to regional 
communications and trade. While Kazakhstan and Kyrgyzstan have access 
to Russia and China, Tajikistan is almost wholly dependent on 
Uzbekistan for contacts with the outside world. Over the last several 
years, Tajikistan's trade and communications with states beyond 
Uzbekistan have dwindled.
    This is particularly dangerous. As stressed earlier, Tajikistan's 
situation is akin to that of Afghanistan. After 5 years of civil war 
(1992-1997), it has its own mix of extremely weak central government, 
and high levels of unemployment and impoverishment that facilitate the 
growth of radical forms of Islam that may provide ideological 
motivation for terrorist acts. Tajikistan has already been the breeding 
ground for its own radical militants, many of whom fled across the 
border to join the Taliban in Afghanistan at the end of the civil war, 
and has been the staging ground for the Islamic Movement of Uzbekistan. 
Although the leadership and forces of that group seem to have been 
decimated in the course of the war against the Taliban, other groups 
may emerge. In northern Tajikistan, and across the border in southern 
Kyrgyzstan, clandestine Islamic movements such as Hezb-e-Tahrir have 
made considerable inroads among rural and urban youth alike, especially 
among the ethnic Uzbek population of the Ferghana Valley. They have 
stepped into the vacuum left by the collapse of secular political 
movements and by weak non-governmental organizations starved of 
resources.
    Prior to September 11 and the war in Afghanistan, Uzbekistan was in 
a far different position in U.S. policy. The international NGO 
community had documented serious and persistent human rights abuses and 
infringements of political and religious freedoms and brought them to 
public and government attention. Although the U.S. had pledged 
increased military support for Uzbekistan--in light of the security 
concerns about Afghanistan and regional militant groups criticism of 
the Karimov regime had increased in the State Department and Congress. 
Since the war began in Afghanistan, this criticism has been muted--in 
fact, almost silenced.
    In three short months, President Karimov of Uzbekistan has been 
elevated from the position of Central Asian autocrat to strategic 
partner of the United States and has been emboldened. By leveraging his 
few assets of value to the U.S. and its--international partners--bases 
and a bridge--he has extended his term and secured aid. Absent the war 
in Afghanistan, Karimov could not have expected to gain U.S. approval 
(tacit or otherwise) for violating democratic principles and extending 
his term, and there would have been no new infusion of economic 
assistance without evidence of a clear commitment to economic reform. 
Uzbekistan has made some token written commitment to reform in a 
November 30 Memorandum of Understanding between the two governments, 
but words are not easy to translate into action. In the pursuit of the 
war in Afghanistan, the United States may have consolidated and 
bolstered another authoritarian and bankrupt regime in Central Asia, 
and further set back the prospects for regional development and 
stability.
    Uzbekistan's lack of commitment can be directly correlated to a 
lack of confidence in the United States' own commitment to a long-term 
presence in the region. In spite of the seeming new interest in Central 
Asia in the United States--underscored by the creation of this new 
Subcommittee on Central Asia and the South Caucasus in the Senate--the 
Central Asian states themselves are skeptical about future relations 
with the U.S. They have serious reservations about the nature and 
extent of any long-term U.S. presence in Afghanistan and the region, 
and already see U.S. government attention moving away as the military 
campaign in Afghanistan progresses more quickly than first anticipated.
    Although U.S. officials have repeatedly asserted that there will be 
no repetition of the early 1990s when the U.S. disengaged from 
Afghanistan after the withdrawal of Soviet forces, Central Asian states 
and other regional neighbors fully expect that the U.S. will 
disengage--or at the very best engage half-heartedly. They have been 
bolstered in this conviction by high level and public discussions of a 
shift in the war against terrorism to targets in the Middle East and 
elsewhere, statements that the United States will not lead the long-
term political and economic reconstruction of Afghanistan, and 
assertions that the U.S. will cede the task to the United Nations and 
other international actors. The imperative to grab concessions when and 
while one can seems like a rational strategy for Uzbekistan and other 
Central Asian states given these considerations.
    Central Asian perceptions and considerations aside, there are 
serious downsides for the United States in not engaging with all of the 
regional states consistently and comprehensively. To stress, again, if 
the U.S. does not engage Central Asia then it also risks the failure of 
its efforts to ensure stability in Afghanistan.
    The U.S. needs to engage in a way that factors in all the Central 
Asian states rather than relying on one, such as Uzbekistan, or two, 
including Kazakhstan, which has become an important U.S. partner in 
energy development in the Caspian Basin. In fact, the two weakest 
states, Tajikistan and Kyrgyzstan, need bolstering the most, and 
Turkmenistan, bordering Iran and Afghanistan, can not be completely 
ignored.

       RECOMMENDATIONS FOR FUTURE U.S. ENGAGEMENT IN CENTRAL ASIA

    In looking at next steps for U.S. policy in Central Asia, we need 
to have some immediate, short-term and long-term goals. I will outline 
what some of these might be.
    In the immediate term, we should not congratulate our new ally, 
Islam Karimov, on the extension of his presidential term--especially if 
this should last a lifetime. Most certainly any invitations to Karimov 
to make a formal visit to Washington should be reconsidered in the 
light of the January referendum on his presidency. The U.S. Government 
and Congress should continue to protest the infringements on rights and 
freedoms in Uzbekistan, as they did in 2000-2001, and insist on 
movement toward political and economic reform. Now more than ever, with 
clearly shared goals in Afghanistan, a new partnership and the promise 
of significant economic assistance, we should be able to do this--but 
only if we are clear that we are engaged in Central Asia for the long 
haul and will not simply move on in another 3 months time. We should 
demonstrate that we do care about the future of Uzbekistan and all of 
Central Asia. This will necessitate more high-level visits to the 
region and movement on commitments for new programs in Congress and the 
Government.
    Again, in the immediate term, we should not rush to fund and 
initiate new security and military programs with Uzbekistan. An over-
emphasis on Uzbekistan's external and border security and efforts to 
strengthen its military bases and forces will simply facilitate the 
creation of ``fortress Uzbekistan'' and bolster Uzbekistan's negative 
leverage with its neighbors. This could potentially encourage Tashkent 
to push the resolution of territorial and other disputes by force. 
Pentagon programs for Uzbekistan should be brought into line with State 
Department and other initiatives that emphasize internal development 
and regional cooperation as well as security.
    In the short term, we should continue the engagement with the other 
Central Asian states that was also initiated in the 1990s, emphasizing 
U.S. relations with all regional actors. In the last several weeks, the 
U.S. Government has moved to develop a new relationship with 
Tajikistan--building on the military basing opportunities there, and 
close cooperation with Russia as the major guarantor of Tajik security. 
Although Secretary Powell did not include Tajikistan in his recent trip 
to Central Asia, Defense Secretary Rumsfeld did visit during his 
Central and South Asia trip in October. A renewed U.S. presence in 
Dushanbe is planned as is some kind of full official diplomatic 
representation for Tajikistan in the United States, which is currently 
absent because of a serious lack of funds. Congress should support the 
expansion of reciprocal U.S. and Tajik representation and presence to 
the fullest extent possible. Of all the Central Asian states, 
Tajikistan is the most receptive to U.S. and other international 
engagement and influence. The same factors of weak central government 
and a high degree of local autonomy and self reliance that offer 
opportunities for radical groups to exploit have also given rise to the 
most active civil society in Central Asia.
    International aid agencies and NGOs working in Tajikistan 
consistently stress the possibilities for new and innovative programs 
that can be implemented with limited resources drawing on the relative 
freedom of speech and assembly beyond Dushanbe. This is in stark 
contrast to the frustration among international donors with the lack of 
similar opportunity in Uzbekistan. The IMF has ended its program in 
Uzbekistan and many international investors have also withdrawn. The 
remaining donors, such as the World Bank and the UNDP, carry out 
limited projects in a few areas such as health, agriculture, education, 
and the environment, including water management. The conclusion is that 
not much can be done in Uzbekistan beyond propping up the government in 
the absence of economic reform. The pressure on Uzbekistan to open its 
economy must continue, but obviously with a commitment from the U.S. 
and other international donors to provide financial and structural 
support for what will be a wrenching transition.
    In the short term, we may also have to slow the pace of some of our 
preferred projects temporarily while an economic base and political 
space are created for change. For example, media projects favored by 
U.S. and other international donors elsewhere in Eastern Europe and the 
former Soviet Union can not be realistically implemented in countries 
where leaders are presidents for life, where to criticize the president 
is treason, and where there is no capital basis for a functioning media 
market. Russia's free media is to Central Asia what the United States 
media is to Russia--that is, decades ahead in its development. So we 
will need to adjust our own expectations of what is possible, and 
resist the temptation to throw good money after bad projects as we 
sadly did so often elsewhere in the former Soviet Union in the 1990s.
    We also need to foster realistic expectations on the part of 
regional leaders about the extent and kind of aid that will be 
forthcoming. The World Bank and the UNDP, for example, will have 
clearly defined but relatively limited roles to play in Central Asia. 
They will not provide huge infusions of cash. World Bank loans for 
projects eventually have to be repaid, and regional governments are 
cash-starved and already heavily indebted. While the UNDP tackles 
poverty alleviation, this can only be done through structural changes, 
multilevel projects in conjunction with other donors, and gradual, 
incremental steps over a long period of time.
    The United States, other bilateral donors such as Japan (which is 
the largest single provider of overseas development assistance to the 
region), and the European Union and its individual member countries, 
can provide far more significant funding. But, here too, there are 
serious limitations. All the Central Asian states have a low absorptive 
capacity for assistance. There are few actors outside the central 
governments. Local governments are often corrupt and inept and lack the 
skills and budget revenues for self-governance. Non-governmental 
organizations are largely absent in Turkmenistan and Uzbekistan, or 
closely tied to the government where they exist. They are squeezed 
politically and starved of funds elsewhere in the region and dependent 
on foreign donors. Some significant successes have been achieved in 
assistance to private sector and business association development and 
microfinance programs for small businesses by USAID and the U.S. 
Eurasia Foundation, in Kazakhstan and Kyrgyzstan, but these can not be 
replicated easily in the closed economy of Uzbekistan or in isolated 
Tajikistan. Where governments have been constrained, private donors 
such as the Eurasia Foundation and the Open Society Institute have been 
able to develop very active small grantmaking programs across Central 
Asia, but they have made little headway in Turkmenistan and have seen 
their space for action shrink drastically in Uzbekistan over the last 
several years.
    For the long-term, we will need a systematic approach to regional 
development that fosters coordination among programs and donors and 
plays to the respective strengths of individual organizations and 
states. The United States has already taken the lead with Japan and the 
European Union to convene a series of donor conferences and 
coordination mechanisms for Afghanistan. We should employ a similar 
model for Central Asia.
    The region will require the same level of intensity and attention 
to detail if we are to avoid its future Afghanicization.

    Senator Hagel. Doctor, thank you.
    Let me ask each of you, in light of your testimony and your 
expertise in your areas, you have each, I suspect, formed some 
opinions on the temporary coalition government formed to govern 
Afghanistan for the next few months as the Loya Jirga is put 
into place and the democratic steps hopefully developed. I 
would be interested in each of your thoughts on that group of 
individuals and the likelihood of its success. Dr. Starr.
    Dr. Starr. The Northern Alliance approached the 
negotiations with a winner-take-all attitude. The negotiations 
reduced their number of ministries from 20 to 15. They still 
dominate all the key sources of power. The Pashtun plurality of 
the south of the country has been busy in recent days with the 
last moments of Taliban rule. At a certain point, that will be 
past, and at that moment, it is going to be an open question 
whether they rise up against this power grab that took place in 
the north and with the U.S.'s support and, by the way, with the 
strong support of our friend, Mr. Putin.
    Let us hope that the assurances that this is only an 
interim government, that there will be development aid coming 
down the road and they will get a better shake when the real 
government comes into being will preserve calm in the country. 
But I do not think it is a balanced outcome.
    Senator Hagel. How could we have influenced that in your 
opinion to have had a different outcome?
    Dr. Starr. You are asking me to be a Monday morning 
quarterback. I accept.
    I think right from the beginning we should have been alert 
to Mr. Putin's complicated actions after September 11, when he 
did make, indeed, a very welcome public statement, but tried 
his best over several days to discourage Central Asian leaders 
from cooperating with the U.S. effort. He then did a 180 degree 
turn. We were pleased. His military was not. They said you have 
got to cooperate basically with what we have been up to for 10 
years in Afghanistan and get behind this Northern Alliance.
    A meeting was held in Dushanbe, planned the basic Northern 
Alliance approach. After that meeting, at which Mr. Putin was 
present, he announced that Mr. Rabbani of the Northern Alliance 
should be President of the whole country. Period.
    Now, at that point, we should have spoken directly with 
him. Friendship with the Russians or with anyone else should 
open the door to candor and honesty. It should not be a barrier 
to speaking directly about things that are important. We failed 
to express ourselves clearly to them. We made general 
statements. Both the President and the Secretary of State 
repeatedly made general statements about this. These were all 
brushed aside.
    Senator Hagel. What in your opinion are the prospects for 
success in Afghanistan with the current arrangement and the 
current players?
    Dr. Starr. It is interim. I think there are good grounds 
for thinking that a more balanced outcome will follow within 6 
months. I think everyone is fatigued. That will discourage 
large scale return to fighting.
    The interesting situation here is that Afghanistan is a 
land of small farmers. If, between now and the beginning of the 
planting season, the world community makes available to these 
small farmers the possibility of feeding their families, of 
making simple work for themselves and others back in their 
villages, they will take it. This is not rocket science. This 
is good seeds. This is a little help on pipes and so on and 
other equipment needed to rebuild simple mountainside 
irrigation systems. If we can convince the population that by 
the beginning of planting, that door will be open to them, you 
are going to see a dramatic upswing in the fate of Afghanistan.
    Senator Hagel. Thank you.
    Dr. Hill.
    Dr. Hill. I would just like to add to what Dr. Starr said. 
As he indicated in the discussion about Russia, there are many 
actors around Afghanistan who over the years have developed 
their proxies in the country itself. If we are to see long-term 
stability, the United States and its allies in the European 
Union and beyond are going to have to put a lot of pressure on 
those other regional actors to cut those links with former 
leaders like Rabbani or like General Dostum in the northern 
part of Afghanistan, in Mazar-e Sharif. There is a real danger 
of continuing the fragmentation of the country, and a return to 
warlordism by some of these individuals who do not necessarily 
support the central government in Kabul. We are going to really 
have to put our full weight behind this to make it work and to 
keep people from trying to pull the strings of actors to 
influence events. In Dr. Starr's testimony, he also mentioned 
how all of the regional players want to have a say in what 
happens next in Afghanistan, but beyond that also in Central 
Asia. We are going to have to keep alert to this, and that does 
necessitate long-term engagement and not simply pulling back 
and letting things take their own course.
    Senator Hagel. What is your assessment of the long-term 
success? The same question I asked Dr. Starr.
    Dr. Hill. I think it will only work if we do try to focus 
on opening up Afghanistan and forging links between Afghanistan 
and all the multi-poles that Afghanistan operates within. That 
means opening up the borders for full communications with 
Central Asia to the north, turning these axes of communications 
from north to south that have become conduits for drugs and 
other kinds of trafficking into real genuine trade routes with 
clear communications, the restoration of infrastructure, 
encouraging flows perhaps of energy or electricity, pushing 
Afghanistan's communication routes down to the south, opening 
its access to ports in Pakistan, and bringing in other regional 
players in the cooperative sense in terms of expanding trade 
and economic development. That means factoring in China, 
factoring in Iran, factoring in Pakistan and India.
    And that may also necessitate changes in U.S. policy toward 
some of these regional players or at least certainly changes in 
the willingness to work with some of these regional players, 
even if it does not effect a major change in policy toward, 
say, Iran at this stage. We are going to have to start thinking 
of this as a fully integrated and larger region by not simply 
compartmentalizing our approach and focusing on Afghanistan, or 
focusing on Central Asia, or focusing on our South Asia policy. 
We really are going to have to bring people together to work 
very intensively on these issues.
    Senator Hagel. Then your feeling is what as to the 
possibility of success?
    Dr. Hill. I think it is 50/50. If we really can open up 
Afghanistan to the outside world in a meaningful way, then I 
think we do have a good chance of success, if we can keep the 
pressure on these regional actors to stop meddling. But that 
will necessitate a great deal of time and energy on the part of 
the U.S. Government and that is why I say 50/50 because I am 
not convinced at this stage that the administration is really 
committed for the long term to undertake this exercise. We have 
heard statements from Ambassador Jones and certainly from 
Secretary of State Powell that suggests that we are committed. 
But if we do move on in the campaign against terrorism in ways 
that are suggested right now, obviously a good deal of our 
attention will be deflected and there will be pressure within 
the United States to turn our energies elsewhere. That is 
something that I am concerned about.
    Senator Hagel. Well, I think it is a legitimate question 
and concern. I think, however, the President, Secretary of 
State Powell, and others have made it very clear, at least in 
the statements that I have been aware of and conversations I 
have had with them, that this is a long-term commitment, and 
certainly, if for no other reason, it would erode and probably 
extinguish all the commitment and resources that we have 
already applied and will continue to apply. We have an 
investment there, if you look at it from that perspective.
    Dr. Starr.
    Dr. Starr. If I can say, this is a remarkable process we 
are engaged in. So far, it has been carried out with, I think, 
astonishing brilliance. But I have the feeling that at this 
moment, as we look at the region under your subcommittee's 
purview, including though Afghanistan more broadly, the 
historic region of Central Asia, that the upside gains that 
could potentially derive from this activity are just vastly 
greater than we have acknowledged. The payoff could be much, 
much bigger. We have approached this problem in terms of damage 
control. Gosh, we have drugs, we have terrorism. If we can get 
back to zero, we will all be happy. We would go home. That is 
way off the mark, it seems to me.
    If there is a stable Afghanistan--it is an attainable 
goal--if the transport routes in this great region are 
reopened--it is attainable goal--if therefore you have a 
development process beginning that turns Pakistan around, 
instead of being the end of the road, it is as the region has 
always been, a linchpin of huge continental trade, if all that 
happens, what will take place?
    Suddenly Central Asia will become a solid and stable place 
whose leaders do not feel compelled to take these exceptional 
security measures that we are so displeased with. Afghanistan 
will have alternatives to the drug production. Europe will have 
to, perhaps, produce its own or find another source.
    But much more important, trade from east to west from India 
through Pakistan, Afghanistan to Iran will revive, helping all 
those countries, softening their relationships with each other, 
moving toward a solution of the Kashmir problem, giving in 
short to this largely Muslim region the character of a success 
story of moderate Muslim secular states. This is all 
attainable, and it is a lack of imagination or willingness to 
settle for less that is our greatest enemy at this point.
    Senator Hagel. Dr. Starr, I appreciate your comments. And I 
apologize because I am going to have to adjourn this 
subcommittee meeting. I have been told here that we are 
starting a series of votes, and I have no alternative.
    But to very quickly respond to your comment, I cannot speak 
for the administration, nor would I try, but I think the 
administration is in fact committed to the kind of long-term 
scenario/objective that you have laid out, as well as Dr. Hill. 
This will not be easy, as you both know so well and certainly 
Secretary Jones laid out. But I think many of us do believe 
that that long-term commitment from the President, Secretary of 
State Powell, and others is there, and we are going to do 
everything we can to assist them with that. You also both know 
there will be bumps along the way and there will be mistakes 
made and there will be more mistakes.
    But this is one of those areas, as you both have clearly 
articulated, that we cannot afford to defer any decisions here. 
Much of the world stability and the future of the world is 
cradled in this part of the world. Obviously, this is why we 
have put together this subcommittee to put the appropriate kind 
of attention to it that it needs, and your testimony, each of 
you, has helped us get there.
    I apologize. We could go on for hours. And I am only sorry 
my colleagues were not here to hear this, but they will get 
your testimony. It will be included in the record and they will 
get transcripts of our exchange. So, thank you both very much, 
and I look forward to seeing you both again.
    Dr. Starr. Thank you very much.
    Dr. Hill. Thank you.
    Senator Hagel. The subcommittee is adjourned.
    [Whereupon, at 4:36 p.m., the subcommittee was adjourned.]


</pre></body></html>
